                                                                                   F

                                                        NATIONAL SCIENCE FOUNDATION
  $@.                                                    OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS
 z
   4
        0                                      CLOSEOUT MEMORANDUM
        4o

Case Number: I03030009                                                                          Page 1 of 1



                    NSF's Office of Division of Acquisition and Cost Support, BFA/DACS, referred the
            matter of possible false certification in a contract proposal submitted by an entity formed under
            the auspices of the US Small Business Administration's (SBA) MentorProteg6 program.' The
            ProtCgC signed the proposal and accompanying certifications, including the certification that:
            "The Offeror and/or any of its Principals - Are not presently debarred, suspended, proposed for
            debarment, or declared ineligible for the award of contracts by any Federal agency." DACS
            found that Mentor is currently listed in the General Services Administration (GSA) Excluded
            Parties Listing Service (EPLS) as a firm that is under Voluntary Exclusion from all HUD
            programs only. DACS also found that the proposal was not within the competitive ranged and
            eliminated the proposal from consideration for contract award.

                   SBA-OIG declined to join our investigation and the SBA Office responsible for the
            MentorlProt6gC program stated that they were aware that GCS was listed in the EPLS but would
            not address this issue unless an active contract was presented for certification by the office.

                    The Protege was interviewed and stated that he was aware that Mentor had an agreement
            with HLJD not to conduct business with KID,but was told that this was not a debarment or
            suspension action. Protege said that he even had an attorney look at the HUD agreement and the
            attorney advised that this agreement did not mention debarment andlor suspension. The Protege
            said that he did not know that there was a government-wide debarment list maintained by GSA;
            consequently, he did not check the list prior to signing the certification.

                    We concluded that the Protege did not know the certification was false and determined
            that there is no loss to the government.

                    Accordingly, this case is closed.




   ti

NSF OIG Form 2 (1 1/02)
